Audit of USAID/Ethiopia’s Financial Operations
and Controls for Fiscal Year 2002
Audit Report No. 4-663-03-001-F
February 28, 2003




            PRETORIA, SOUTH AFRICA
February 28, 2003

MEMORANDUM

FOR:           Acting Mission Director, USAID/Ethiopia, Valerie Dickson-
               Horton

FROM:          Regional Inspector General/Pretoria, Jay Rollins /s/

SUBJECT:       Audit of USAID/Ethiopia’s Financial Operations and Controls for
               Fiscal Year 2002 (Report No. 4-663-03-001-F)

This memorandum is our report on the subject audit.

USAID/Ethiopia’s management comments on the draft report were considered and
included as Appendix II. This report contains no recommendations for your action.

I appreciate the cooperation and courtesy extended to my staff during the audit.
[This page intentionally left blank.]




                                        2
Summary of   The audit of USAID/Ethiopia’s financial operations and controls for fiscal year
Results      2002 focused on determining whether financial data were free from material
             misstatements. (See page 4.)

             The audit showed that USAID/Ethiopia’s fiscal year 2002 financial data were free
             from material misstatements. Substantive testing did not identify any discrepancies
             in the Mission’s financial data reported for fiscal year 2002 that would materially
             impact the Mission’s account balances. (See page 4.)

             Management indicated that they agreed with our findings. They also thanked the
             audit team for the professional and cooperative manner displayed throughout the
             audit. (See page 5.)



Background   The Government Management Reform Act of 1994 requires agencies to complete
             audited financial statements each year covering all accounts and associated
             activities of the agencies. These financial statements are required to not only
             report the financial position and results of operations of the agency, but also to
             provide further information allowing Congress and the public to assess
             management’s performance and stewardship of agency resources. As a result of
             this legislation, USAID management is required to compile USAID-wide
             financial statements and supplemental information. For fiscal year 2002, these
             financial statements were to be audited and submitted to the Office of
             Management and Budget (OMB) no later than February 1, 2003.1

             This review is part of a USAID-wide effort, led by the Office of Inspector
             General’s Financial Audits Division in Washington, D.C., to audit USAID’s fiscal
             year 2002 financial statements prior to their submission to OMB.
             USAID/Ethiopia uses the Mission Accounting and Control System (MACS) for
             accounting and controlling budget transactions. During fiscal year 2002, MACS
             data was consolidated into USAID/Washington’s system using the MACS
             Auxiliary Ledger. This ledger is a detailed transaction-level database maintained
             and used by USAID/Washington, Office of Management, Financial Management
             Division to journalize and post mission transaction balances to the USAID
             general ledger and then to the financial statements.




             1
                 OMB Bulletin No. 01-09, September 25, 2001.



                                                                                           3
Audit Objective   As part of a USAID-wide effort, RIG/Pretoria performed this audit to answer the
                  following question:

                         Are USAID/Ethiopia’s fiscal year 2002 financial data free from
                         material misstatements?

                  Appendix I provides a complete discussion of the scope and methodology for this
                  audit.




Audit Findings    Are USAID/Ethiopia’s fiscal year 2002 financial data free from material
                  misstatements?

                  USAID/Ethiopia’s fiscal year 2002 financial data were free from material
                  misstatements. The substantive testing phase of our audit did not identify any
                  discrepancies in the Mission’s financial data reported for fiscal year 2002 that would
                  materially impact the Mission’s account balances. Overall, the Mission’s fiscal year
                  2002 financial data met the following financial statement assertions as required by
                  Office of Management and Budget Bulletin No. 01-02 and related General
                  Accounting Office Guidance:

                  • All assets and liabilities actually exist and expense transactions actually occurred
                    (Existence and Occurrence).
                  • All transactions and accounts are presented in the financial statements
                    (Completeness).
                  • Amounts recorded as assets represent property rights and the amounts recorded as
                    liabilities represent obligations of the entity (Rights and Obligations).
                  • Assets, liabilities, revenue and expenses are assigned proper values (Valuation
                    and Allocation).
                  • Accounting principles are properly applied and disclosures are adequate.
                    (Presentation and Disclosure).

                  During the audit we became aware of a minor discrepancy relating to property, plant
                  and equipment that we believe warrants management’s attention.                 We
                  communicated this to USAID/Ethiopia in a separate memorandum.




                                                                                                  4
Management       In response to our draft report, management indicated that they agreed with our
Comments and     findings and thanked the audit team for the professional and cooperative manner
Our Evaluation   displayed throughout the audit.




                                                                                           5
[This page intentionally left blank.]




                                        6
                                                                                  Appendix I


Scope and     Scope
Methodology
              RIG/Pretoria conducted this audit in accordance with generally accepted government
              auditing standards. The audit is part of a USAID-wide effort led by the Office of
              Inspector General, Financial Audits Division (IG/A/FA) in Washington, D.C. In
              auditing the financial data, IG/A/FA performed an earlier internal control review at
              the Mission in May 2002. Fieldwork was conducted at USAID/Ethiopia in Addis
              Ababa, Ethiopia, from October 16 to November 8, 2002.

              The audit was conducted to determine if USAID/Ethiopia’s fiscal year 2002
              financial data were free from material misstatements. The audit focused on
              reviewing and testing management controls over the financial data generated
              under the following accounting processes: advances, accruals, data calls,
              disbursements, SF-1221 Treasury Fund Balance reconciliation, budgetary
              balances, and closing procedures.    To audit the aforementioned accounting
              processes, sample items were either judgmentally or statistically selected for
              testing, as identified below:

              Advances – The Office of Inspector General (OIG) statistician statistically
              selected a sample of 64 transaction items from a total universe of 266 transaction
              items. The net value of the sample items was $379,536 of a total $420,690. The
              absolute value of the sample was approximately $940,000 of a total absolute
              value of approximately $1 million. We determined the amount of outstanding
              advances over 120 days.

              Accruals – The OIG statistician statistically selected a sample of 67 transaction
              items from a total universe of 373 transactions. The absolute value of the sample
              items was $30.8 million out of a total absolute value of $40.6 million.

              Data Calls – RIG/Pretoria auditors judgmentally selected several sample items
              from the Mission’s data calls for the following costs:

              •   Non-expended Property - the auditors selected two sample items and
                  physically verified the existence of all capitalized items listed on the
                  Capitalized Property Report.
              •   Expendable Property – The auditors physically verified the existence of items
                  less than $25,000 and determined if any item was unused or idle that should
                  be written off.
              •   Schedule 9 Account Receivables – The auditors reviewed the Mission’s two
                  delinquent accounts receivable and verified to the supporting documentation.




                                                                                             7
•   Unfunded Accrued Annual Leave for Foreign Service Nationals and Personal
    Service Contractors – The auditors judgmentally selected 16 sample items to
    verify the total amount of unfunded leave.
•   Operating Leases – The auditors verified two operating leases to supporting
    documentation.

Disbursements – The OIG statistician statistically selected a sample of 81
transaction items from a universe of 2,835 transactions. The absolute value of
the sample items was $14.4 million of a total absolute value of $24.5 million.

SF-1221 Treasury Fund Balance Reconciliation – The tests covered the July
and August 2002 reconciliation process for appropriations 72X1021, 72X1095,
and 72231021.

Budgetary Balances – During fiscal year 2002, USAID/Ethiopia processed 1,108
items with an absolute value of approximately $41.3 million. We statistically
selected 76 items with an absolute value of approximately $38.2 million.

Closing Procedures – The review covered interviewing the Controller and
verifying supporting documentation to determine if the Mission implemented the
required closing procedures.

Methodology

To accomplish the audit objective, the auditors conducted interviews with officials
and staff at USAID/Ethiopia in order to gain an understanding of the Mission’s
existing procedures and controls covering the processes tested.

The OIG statistician statistically selected sample transaction items from the MACS
Auxiliary Ledger for testing. The sample size was derived with the assumption of
less than five percent error rate, four percent precision and 90 percent confidence
level for each population.        The sampling plan was based on prior history,
knowledge of the operation, risks, and the costs involved. In assessing accuracy, we
used a materiality threshold of plus or minus five percent relative to the population
being audited.

The tests of details included verifying the accuracy of the data with source
documentation and detailed accounting records maintained by the Mission. In
addition, we determined whether the data met the five financial statement assertions:
existence and occurrence; completeness; rights and obligations; valuation and
allocation; and presentation and disclosure. To gather audit evidence, the audit
procedures involved recalculation, physical observation, confirmation, interviews,
examination of documents, vouching, tracing, and sampling.           The audit also



                                                                                8
included a review of the procedures and controls in place at the time of our
fieldwork.

For criteria, the auditors used financial management-related chapters from the
Automated Directives System, Office of Management and Budget circulars and
bulletins, the Government Management Reform Act of 1994 and General
Accounting Office guidance.




                                                                         9
[This page intentionally left blank.]




                                        10
                                                                                              Appendix II



Management
Comments



                                                    UNITED STATES
                                       AGENCY FOR INTERNATIONAL DEVELOPMENT
                                                MISSION TO ETHIOPIA



                                                                                      Riverside Building
                                                                                       Off Asmara Road
                                                                                           P.O. Box 1014
                                                                                            Addis Ababa
                                                                                     Tel: 251-1-51-00-88
                                                                                     Fax: 251-1-51-00-43




             MEMORANDUM
             TO:              Regional Inspector General/Pretoria, Jay Rollins

             FROM:            Acting Mission Director, USAID/Ethiopia, Valerie Dickson-Horton /s/

             DATE:            February 28, 2003

             SUBJECT:         Audit of USAID/Ethiopia’s Financial Operations and Controls for Fiscal
                              Year 2002 (Report No. 4-663-03-00X-F)

             We agree with your findings. We would also like to express our appreciation for the professional
             and cooperative manner that your audit team displayed throughout the audit.




                                                                                                           11
